           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

           THREATS AGAINST
   SOCIAL SECURITY ADMINISTRATION
       EMPLOYEES OR PROPERTY

   November 2010       A-06-10-20123




  EVALUATION
    REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                          SOCIAL SECURITY
MEMORANDUM

Date:      November 30, 2010                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Threats Against Social Security Administration Employees or Property (A-06-10-20123)



           OBJECTIVE
           Our objective was to review the Social Security Administration’s (SSA) process for
           reporting and responding to threats against its employees or property.

           BACKGROUND
           Preventing workplace violence is a growing concern. Public interest and media
           attention have focused on recent incidences of violence at Federal facilities. High
           profile examples of these incidents include a February 2010 airplane attack on an
           Internal Revenue Service facility in Austin, Texas, and a March 2010 shooting at the
           Pentagon. Other recent examples of workplace-related violence highlight the nature of
           potential threats faced by SSA’s employees. For instance, in January 2010, a gunman
           opened fire in a Las Vegas, Nevada, courthouse killing a security guard and wounding a
           U.S. Marshal. Authorities believed anger over perceived cuts to his Supplemental
           Security Income payments motivated the gunman.

           SSA uses the Automated Incident Reporting System (AIRS), an online, incident-based
           reporting system, to collect data about incidents that affect the safety and security of
           SSA’s personnel, property, or operational capabilities. Incidents may be criminal or
           noncriminal events, including threats or potential threats that affect the security and
           safety of SSA’s employees, guards, visitors, facilities, and records. 1 Management is
           responsible for documenting all incidents that directly or indirectly adversely impact the
           safety and security of SSA’s personnel, visitors, and property by completing the AIRS
           Incident Alert; obtaining statements or reports prepared by employees, guards, or
           others; and attaching those statements and reports to the Incident Alert. Regional and
           Component Physical Security Coordinators are responsible for security oversight under


           1
            SSA, Administrative Instructions Manual System (AIMS), General Administration Manual 12.07.01A,
           Automated Incident Reporting System.
Page 2 - The Commissioner


the direction and guidance of the Office of Protective Security Services (OPSS) for their
specific region. OPSS is responsible for maintaining the AIRS database. In addition,
OPSS collects, collates, and analyzes data provided from the Incident Alerts.

In May 2010, we sent workplace safety-related questionnaires to 2,500 randomly
selected SSA employees. 2 The purpose of our questionnaire was to assess employees’
overall attitudes regarding workplace safety and the threat reporting process. Over
approximately 1 month, 2,141 employees (85.6 percent) responded to the
questionnaire. We provide a summary of these responses in this report.

RESULTS OF REVIEW
SSA has experienced a dramatic increase in the number of reported threats against its
employees or property. The number of threats recorded in AIRS increased by more
than 50 percent in Fiscal Year (FY) 2009 and by more than 60 percent in FY 2010.


                                Threats Against SSA Employees or Property Recorded in AIRS
                                                       (FY 2007 - 2010)
                        2500
                                                                                    2,336




                        2000
    Number of Threats




                                                                         1,447

                        1500



                                                 937
                                897
                        1000




                         500




                           0
                               FY 2007           FY 2008                  FY 2009      FY 2010

                                                           Fiscal Year


Threat reports come from a variety of sources. Most threats recorded in AIRS
originated in SSA field offices. Typically, employees who are threatened report those
threats to a supervisor. Management is responsible for recording information about the
threat in AIRS. Additionally, the employee or supervisor can report the threat to law

2
  We randomly selected 250 employees from each SSA region whose duties were likely to involve
interaction with the public.
Page 3 - The Commissioner


enforcement officials, Federal Protective Services (FPS), 3 and/or the Office of the
Inspector General’s (OIG) Office of Investigations (OI).

SSA categorized threats into six groups:

1.   threats against an employee;
2.   threats against self (suicide);
3.   threats against the office;
4.   threats against others;
5.   threats against security guards; and
6.   bomb threats.

The number of recorded threats in every reporting category has grown each year since
2008.

                             Types of Threats Recorded in AIRS
                                         (FY 2007 - 2010)

     700


     600


     500
                                                                                                 2007
     400


     300                                                                                         2008


     200
                                                                                                 2009

     100
                                                                                                 2010
      0




3
 FPS is a Federal law enforcement agency that provides integrated security and law enforcement
services to federally owned and leased buildings, facilities, property, and other assets.
Page 4 - The Commissioner


EMPLOYEE QUESTIONNAIRE
To assess SSA employees’ opinions regarding workplace safety and the threat
reporting process, in May 2010, we conducted an email survey of 2,500 randomly
selected SSA personnel whose duties were likely to involve interaction with the public.
Over approximately 1 month, 2,141 (85.6 percent) employees responded to the
questionnaire. We analyzed the results by each of SSA’s 10 regions and compared
each region’s responses with the cumulative responses. We did not identify any
significant variances between regional responses.


                                               Employee Attitude Regarding Workplace Safety
Employee Attitude Regarding                                    (2,141 Respondents)
SSA Workplace Safety
                                                                                                       1,226
                                                                                                     Usually Feel
We asked employees to                                                                                   Safe
describe their attitude regarding                                                                      (57%)
SSA workplace safety.
Ninety-seven percent of
respondents indicated they
                                            857
either always or usually felt safe      Always Feel
                                                                             13            45
at work.                                    Safe                                       Rarely Feel
                                                                          Never Feel
                                           (40%)                                          Safe
                                                                            Safe
                                                                            (1%)          (2%)




Knowledge of Threat                                   Knowledge of Threat Reporting Procedures
Reporting Procedures                                             (2,141 Respondents)

We asked employees to                    1,942
                                     Know Threat
indicate whether they were             Reporting
aware of SSA’s threat reporting       Procedures
procedures. Ninety-one percent           (91%)

of respondents indicated they
knew the procedures to follow if
they were threatened at work.

                                                                                              199
                                                                                         Do Not Know
                                                                                            Threat
                                                                                           Reporting
                                                                                          Procedures
                                                                                             (9%)
Page 5 - The Commissioner


Employees Who Have Been
Threatened at Work

We asked whether, during the                 Threatened at Work During the Past 3 Years
past 3 years, while working for                          (2,141 Respondents)
SSA, the employee had been                 1,853
threatened at work. Of the                  NO
                                           (87%)
2,141 respondents, 288
(13 percent) indicated they had
been threatened at work. The
majority of these employees
(82 percent) said the threat was
communicated either through a
face-to-face exchange or over                                                      288
the telephone. Even after                                                          YES
enduring these experiences,                                                       (13%)

93 percent of the
288 employees indicated they
either always or usually feel
safe at work.
                                                    Number of Threats Received
                                                          (288 Respondents)


                                                                                                  125
                                                                                               2-3 Times
                                                                                                 (43%)
Of the 288 employees who
had been threatened at work,        142
51 percent indicated they were     Once
threatened more than once          (49%)
during the past 3 years.


                                                                                       10
                                                                          11
                                                                                   4-5 Times
                                                                      More than
                                                                                     (4%)
                                                                       5 Times
                                                                         (4%)
Page 6 - The Commissioner


Incident Reporting by Threatened
Employees

We asked the 288 employees
who had been threatened at work
                                             Report Threat to Supervisor or Other Official
to indicate whether they reported                          (288 Respondents)
the threat(s) to their supervisor or
another official. Of those, 208
(72 percent) indicated they                208
                                         Reported
reported every threat, and 45             Every
(16 percent) indicated they               Threat
                                          (72%)
reported some of the threats.

The primary reason respondents
gave for why they did not report
threats was that they did not
believe the threat was serious.                                                               45
However, 14 respondents said                                                            Reported Some
                                                                         35                Threats
they did not report the threat                                    Reported None             (16%)
because either they did not                                        of the Threats
believe management would take                                          (12%)

it seriously or they believed they
would be negatively impacted as
a result of reporting the threat.

Of the 253 employees who reported             Reported a Threat - Satisfied with Agency Response
a threat, 206 (81 percent) said they                           (253 Respondents)
were satisfied with the Agency’s
response.
                                                        206
                                                        YES
Of the 47 respondents who indicated                    (81%)
they reported a threat but were not
satisfied with the Agency’s
response, 37 stated management
did not take the reported threat
seriously or that management’s
response was untimely or
insufficient. For example, five
employees stated that management
                                                                               47
did not take action to remove the                                             NO
perpetrator from the office or prevent                                       (19%)
the individual from making future
office visits.
Page 7 - The Commissioner


SSA THREAT-REPORTING PROCEDURES
There is sometimes a fine line between an expression of anger and a threat. SSA
personnel must use judgment in deciding whether the situation rises to the level of an
incident. Employees should report all threat-related incidents to management as soon
as possible. Management is responsible for documenting all incidents that directly or
indirectly adversely impact the safety and security of SSA’s personnel, visitors, and
property by completing an AIRS Incident Alert. 4 SSA requires that managers document
all incidents within 2 workdays. 5

Once a manager records an incident report in AIRS, the system automatically routes
incident notification to both the applicable Area Director and the designated regional or
component Physical Security Coordinator. Each region should periodically evaluate
AIRS incident data in their areas of responsibility to identify and document facility
problems, justify additional protective measures, and participate in the development and
implementation of training and awareness programs.

Fact Sheets

In addition to the AIRS Incident Alert, the Deputy Commissioner for Operations (DCO)
requires that managers prepare detailed fact sheets describing all threat-related
incidents. 6 Like AIRS Incident Alerts, managers are required to prepare and submit fact
sheets within 2 workdays after an incident. Operations developed a fact sheet template
for this use. The various SSA regional offices determine the routing for fact sheets in
their regions. However, all regional offices are required to submit the fact sheet as a
Word document attached to an email with an executive summary to a DCO front office
email account. The executive summary should provide enough information to give the
audience an understanding of the incident without having to read the fact sheet. DCO
staff review and distribute all fact sheets to the DCO. In many situations, Operations
will also forward fact sheets to the Commissioner’s office.

Ban Letters

In instances where disruptive visitors make or imply threats, management may exercise
the option of barring the individual from future visits to SSA’s facilities through the
issuance of a ban letter. A ban letter formally notifies the individual that SSA will no
longer permit him or her to conduct business in person in the Agency’s field offices
without prior written approval; and if they attempt to do so, they will be subject to arrest
for trespassing. Managers who initiate ban letters should input a high-risk indicator in



4
    AIMS 12.07.03A.
5
    AIMS 12.07.04A.
6
    Threats and Disruptive Visitors Fact Sheet Process, DCO Guidance for Regional Offices, June 2010.
Page 8 - The Commissioner


the Visitor Intake Process (VIP) application. 7 No matter which field office the individual
visits, the VIP system will generate a high-risk alert to inform SSA personnel of the
potential danger posed by the individual. SSA has not established express policies
requiring ban letter issuance in response to threat related incidents. However, if a
manager decides not to issue a ban letter, the DCO requires that the manager provide a
rationale for the decision in both the fact sheet and executive summary.

Ban letters and VIP high-risk indicators cannot prevent threatening individuals from
entering SSA’s facilities. However, they can serve as a deterrent and provide SSA
employees with information needed to notify security of a banned individual’s presence
or to contact local or OIG law enforcement personnel for assistance.

Threat Incident Referrals to the OIG’s Office of Investigations

The OIG’s OI conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement in SSA’s programs and operations. OI serves as the
OIG’s liaison to the Department of Justice on all matters related to investigations of
SSA’s programs and personnel and reports to the Attorney General when OIG has
reason to believe Federal criminal law has been violated.

We compared the                                 AIRS Threats Reported to the OIG's OI
number of threats                                              (2007 - 2010)
recorded in AIRS with the          2500
                                                                                         2,336
                                                                                                         AIRS
number of threat-related                                                                                 Threats
referrals forwarded to             2000
OIG and documented in
                                                                          1,447
its National Investigative
                                   1500
Case Management                                                                         1,234
System (NICMS). 8                                            937
                                                                                                         Referred
                                               897                                                       to OIG
Similar to the overall             1000
growth in the number of
threats, SSA threat                                                        422
                                    500
incident referrals to the                      171           152
OIG have also risen
considerably since                    0

FY 2008.                                    FY 2007       FY 2008        FY 2009       FY 2010



Based on its review of the particular facts and circumstances of the threat incident, OI
can open a criminal case and assign a criminal investigator(s) to investigate the
incident. SSA does not require that managers report threat incidents to the OIG.
7
 VIP is a computer program designed to help field offices automate and control all stages of in-office
visitors and scheduled appointments. The program collects information about office visitors and
appointments and provides management information that provides a picture of field office visitor and
reception activities that help SSA analyze the effectiveness of its customer service.
8
 NICMS is a centralized database containing investigative information pertaining to allegations and cases
of fraud, waste, and abuse in Social Security programs.
Page 9 - The Commissioner


Instead, SSA leaves these decisions to the discretion of managers throughout the
various SSA regions. We observed a wide variance in the percentage of threat
incidents the various SSA regions referred to OIG.

                  Percentage of Allegations SSA Referred to OIG By SSA Region
                                        (FYs 2007 - 2010)

    70%

    60%

    50%

    40%

    30%

    20%

    10%

     0%




The Boston, Kansas City, Denver, and San Francisco Regions refer 50 percent or more
of threat incidents to the OIG. The Atlanta, Chicago, and Seattle Regions refer less
than 25 percent of threat incidents to OIG.

CONCLUSION
SSA has experienced a dramatic increase in the number of threats in every reporting
category since 2008. The number of threats recorded in AIRS increased by more than
50 percent in FY 2009 and increased by more than 60 percent in FY 2010.

We received input from 2,141 SSA employees regarding their general opinions on
workplace safety as well as SSA’s threat reporting process. A vast majority of the
employees was familiar with SSA’s threat reporting procedures and “always” or “usually”
felt safe at work. About 13 percent of respondents indicated they had been threatened
at work during the past 3 years. A high percentage of these employees reported the
threat(s) to management and was satisfied with the Agency’s response. Even after
receiving threats while at work, these employees stated they “always” or “usually” felt
safe at work at rates relatively consistent with employees who had not endured similar
experiences.

SSA has implemented procedures intended to ensure prompt threat incident reporting.
SSA requires that managers timely document threat incidents in AIRS. However, SSA
also requires completion of separate fact sheets and executive summaries describing
Page 10 - The Commissioner


incidents with different levels of detail, and these documents are disseminated to
various parties outside AIRS. We received no input to indicate this multi-tiered incident
reporting process discouraged incident reporting. However, we believe it would be
optimal to require that field managers create a single, comprehensive description of an
incident in AIRS and have all required reporting emanate from the single input. SSA
security staff stated the Agency is working to develop this functionality in AIRS.

When threat incidents occur, SSA can report the threats to the OIG. However, SSA
decentralized the reporting decision to the discretion of Security Coordinators
throughout the various SSA regions. As a result, we identified a wide disparity in the
percentage of threat-related incidents the various SSA regions report to OIG.

AGENCY COMMENTS AND OIG RESPONSE
SSA stated it had already recognized the disturbing trend in the number of employee
threats and has taken action to protect its employees and the public. For example, SSA
increased the presence of armed security guards, and is considering additional security
enhancements, such as installation of duress alarms and closed circuit surveillance.
The current incident reporting process requires managers to prepare three separate
incident-related reports (AIRS report, fact sheet, and executive summary). SSA
indicated it could not adopt our suggestion to have all required incident reporting
emanate from a single input. SSA implied that implementation of the suggestion would
eliminate incident fact sheets. To clarify, we offered the suggestion to simplify the
incident reporting process—not eliminate any of the required reports—and acknowledge
that fact sheets and executive summaries are important tools used extensively by SSA
executives and the Commissioner. We envisioned SSA staff generating fact sheets and
executive summaries from the incident data input into the AIRS database.




                                                       Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AIMS    Administrative Instructions Manual System

AIRS    Automated Incident Reporting System

DCO     Deputy Commissioner for Operations

FPS     Federal Protective Services

FY      Fiscal Year

NICMS   National Investigative Case Management System

OI      Office of Investigations

OIG     Office of the Inspector General

OPSS    Office of Protective Security Services

SSA     Social Security Administration

VIP     Visitor Intake Process
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

• Reviewed applicable regulations and the Social Security Administration’s (SSA)
  policies and procedures.

• Interviewed various SSA and Office of the Inspector General (OIG) Office of
  Investigations staff.

• Reviewed prior OIG reports.

• Obtained and analyzed Automated Incident Reporting System summary data from
  SSA identifying 5,617 threats reported during the period October 2006 through
  September 2010.

• Obtained and analyzed threat data contained in the OIG’s National Investigative
  Case Management System identifying 1,979 threats that SSA referred to OIG during
  the period October 2006 through September 2010.

• Worked with SSA Human Resources staff to identify all SSA employees who were
  likely to interact with the public, excluding Headquarters, OIG, and Office of Quality
  Performance personnel. Based on our selection criteria, Human Resources identified
  51,266 SSA employees.

    We randomly selected 2,500 of the 51,266 employees to participate in our survey
     involving questions about workplace safety as well as SSA’s threat reporting
     process.

    In May 2010, we sent electronic questionnaires to all 2,500 employees.

    Over approximately 1 month, we received questionnaire responses from
     2,141 employees (85.6 percent).

    We summarized questionnaire responses.

We conducted fieldwork from April to October 2010. The entities reviewed were the
Offices of the Deputy Commissioner for Operations and Budget, Finance and
Management. We determined the data used in this report were sufficiently reliable
given the review objective and their intended use. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspections.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      October 26, 2010                                                       Refer To:

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Threats Against Social Security
           Administration Employees or Property” (A-06-10-20123)—INFORMATION


           Thank you for the opportunity to review the subject draft report. Please see our attached
           response.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THREATS AGAINST SOCIAL SECURITY ADMINISTRATION
EMPLOYEES OR PROPERTY” (A-06-10-20123)

Thank you for the opportunity to review the subject report. We offer the following comments.

GENERAL COMMENT

As you state in your evaluation report, we are experiencing a dramatic increase in reported
threats to our employees and property. Prior to your review, we had already recognized the
disturbing trend ourselves, and we began taking additional actions to protect our employees and
the public. It is reassuring that your survey indicates the vast majority of our employees feel safe
at work. This notwithstanding, we can do even more, and we are working to standardize security
in all our offices. For example, we are increasing the presence of armed guards, and we are
considering other security enhancements such as duress alarms and closed-circuit surveillance.


COMMENT ON EVALUATION REPORT CONCLUSION

You state, “However, we believe it would be optimal to require that field managers create a
single, comprehensive description of an incident in AIRS and have all required reporting
emanate from the single input.” At this time, we cannot adopt your suggestion. We may
consider it for the future, but for now, AIRS and “fact sheets” are both important tools. Our
executives use the fact sheets extensively, and our Commissioner takes a particular interest in
reviewing them to keep abreast of threats to employees and the public. We will continue using
both reporting processes for the foreseeable future.




                                                C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Ronald Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments
In addition to those named above:

   Ashley Moore, Auditor

   Jeff Brown, Acting Director, Technical Services Division

   Rajula Chandran, Senior IT Specialist

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-20123.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
